No. 20-1263
IN THE SUPREME COURT OF THE UNITED STATES
GIANINNA GALLARDO, AN INCAPACITATED PERSON,
BY AND THROUGH HER PARENTS AND CO-GUARDIANS
PILAR VASSALLO AND WALTER GALLARDO,

Petitioner,

v.
SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE FLORIDA AGENCY FOR
HEALTH CARE ADMINISTRATION,

Respondent.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief for Petitioner contains 12,989 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
Executed on September 15, 2021.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

